               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           District Practices Affecting
                  Financial Risk

         Management Advisory Report




                                              July 11, 2011

Report Number FF-MA-11-116
                                                                             July 11, 2011

                                             District Practices Affecting Financial Risk

                                                                            FF-MA-11-116




                                               WHAT THE OIG RECOMMENDED:
IMPACT ON:                                     We recommended the Postal Service
District practices affecting financial         develop a standardized process
accountability and risk.                       requiring unit managers to certify
                                               completion of key financial reporting
WHY THE OIG DID THE AUDIT:                     controls; continuously monitor unit
Our objective was to determine whether         financial performance by routinely
opportunities exist to share district best     reviewing financial data; require unit
practices related to the management of         staff with financial responsibilities to
financial operations, and thus, reduce         complete financial training; and further
financial risk U.S. Postal Service-wide.       develop a forum to continuously identify,
                                               share, and implement best practices .
WHAT THE OIG FOUND:
Postal Service districts that consistently     WHAT MANAGEMENT SAID:
ranked as low risk in the U. S. Postal         Management agreed with the
Service Office of Inspector General Cost       recommendations to monitor financial
and Control Risk Model continuously            performance and train those with
monitored financial accountability             financial responsibilities; however, it did
performance. The district finance              not agree fully with recommendations to
managers used a ‘hands-on-approach’            develop standardized processes to
to manage financial activity in their          ensure financial responsibilities are
districts. Some districts routinely            completed and to develop a forum to
monitored detailed financial data to           share best practices. Management
identify compliance issues. Other              currently has an automated certification
districts used different approaches and        process and has a number of forums for
indicators to measure financial risk. One      identifying and sharing best practices.
district also required personnel with          Management’s continued emphasis of
financial responsibilities to complete         sharing best practices and plans to
financial related training programs. We        centralize performance indicators in a
believe implementing similar practices         database should result in a standardized
throughout the Postal Service financial        process for monitoring and tracking
community will promote accountability          financial performance.
and reduce financial risk.
                                               Link to review the entire report
July 11, 2011

MEMORANDUM FOR:              TIMOTHY F. O’REILLY
                             VICE PRESIDENT, CONTROLLER




FROM:                        John E. Cihota
                             Deputy Assistant Inspector General
                              for Financial Accountability

SUBJECT:                     Management Advisory - District Practices Affecting Financial
                             Risk (Report Number FF-MA-11-116)

This report presents the results of our review of district practices affecting financial risk
(Project Number 11BG004FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact William Rickett, acting director,
Field Financial – Central, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Monitoring of Financial Performance ............................................................................... 2

Finance-Related Training ................................................................................................ 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Example of the Checklist............................................................................. 9

Appendix C: Example of Completion Survey................................................................. 10

Appendix D: Management’s Comments ........................................................................ 11
District Practices Affecting Financial Risk                                                          FF-MA-11-116




Introduction

This report presents the results of our review of district practices affecting financial risk
(Project Number 11BG004FF000). The objective of our review was to determine
whether opportunities exist to share district best practices related to management of
financial operations between districts and, thus, reduce financial risk
Postal Service-wide. This review was self-initiated and addresses financial risk. See
Appendix A for additional information about this audit.

The U.S. Postal Service Office of Inspector General (OIG) developed the Performance
and Results Information System (PARIS) Cost and Control Risk Model (CCRM), which
ranks the Postal Service’s districts with respect to 12 financial risk indicators. We used
the risk model to judgmentally select three high-risk and two low-risk districts to identify
and compare financial practices. In the past, the OIG targeted high-risk districts and
designed reviews that focused on the financial areas causing districts to be considered
high risk. Conversely, we designed this review using the risk model to identify
opportunities to employ best practices between districts.

Conclusion

Postal Service districts that consistently ranked as low-risk in the OIG’s CCRM
continuously monitored financial accountability performance. The district finance
managers used a ‘hands-on-approach’ to managing financial activity in their districts.
Some districts routinely obtained and monitored detailed financial data related to local
and non-local purchases, 1 refunds, unit accountability, clerk and office cash, employee
items, master trust, SmartPay®, 2 eBuy, 3 Voyager Fleet, 4 and eTravel 5 to identify
compliance issues and communicate performance results with staff. Other districts
monitored these areas as well but used different approaches and indicators, such as a
checklist to manage financial activity or a scorecard to monitor financial performance
related to Sarbanes-Oxley Act of 2002 (SOX) requirements within the district. One
district also required personnel with financial responsibilities to complete finance-related
training programs. We believe implementing similar practices throughout the Postal
Service financial community will promote accountability and reduce financial risk.




1
  Purchases made for supplies and services using cash or no-fee money orders. Non-local purchases include all
expenses for local units (such as cleaning and utilities) paid centrally through the San Mateo Accounting Service
Center.
2
  The Postal Service SmartPay Purchase Card Program uses purchase cards under the General Services
Administration’s SmartPay Program to expedite purchases and provide visibility of local buying activity.
3
  eBuy is an electronic commerce portal that provides the Postal Service’s employees with electronic requisitioning,
approval, and invoice certification capability.
4
  The Voyager Fleet program manages all commercially purchased fuel and routine maintenance expenses for Postal
Service vehicles.
5
  eTravel is the Postal Service’s online travel reimbursement system.
District Practices Affecting Financial Risk                                                         FF-MA-11-116



Monitoring of Financial Performance

District finance managers who actively monitored financial performance reduced
financial risk within their districts. Of the five districts we reviewed, we found that
managers in the three low-risk districts used various tools to monitor financial
performance, while managers in the two high-risk districts did not.

Specifically, in one of the three low-risk districts, the finance manager used a checklist
and a certification process to help manage financial activity. The checklist 6 addressed
unit financial controls such as bank deposits, stamp accountability, employee items,
cash accountability, and master trust reconciliations; and required units to complete
financial responsibilities monthly. The checklist also included links to applicable policies
and procedures related to these controls. In addition, the district finance manager
required postal retail unit managers to certify that they completed all financial activities
for the monthly reporting period via online surveys. By using a compliance report, this
finance manager tracked units’ activity for completing the certification. Management
monitored those units that did not complete the certification and used trend data to
assess year-end performance. The results were available online to all unit managers as
a means of promoting transparency and accountability. Although the checklist is
available on each area’s website, units are not required to use it. See Appendix B for an
example of the checklist and Appendix C for the certification survey.

In a second low-risk district, the finance manager used the national SOX scorecard 7 to
identify risk and monitor financial performance by focusing on key financial controls
such as cash and stamp management, 8 Voyager reconciliations, and closeout
procedures at postal retail units. Specifically, the manager used the monthly SOX
scorecard as a tool to better identify risks and monitor financial performance within the
district. This manager provided guidance and training to unit personnel when risk and
compliance issues were identified.

Finally, in a third low-risk district, the finance manager, in conjunction with area field
financial specialists, actively monitored field unit compliance and financial performance.
Specifically, these specialists used data obtained from the Accounting Data Mart
(ADM) 9 system to review monthly transaction details, such as unit accountability, clerk
and office cash, employee items, and master trust. The specialists communicated
directly with units not in compliance and provided guidance and instructions for required
corrective action. If the unit was not responsive, the issue was elevated to the district
finance manager who ensured the unit took appropriate corrective action by the end of
the month. This continuous interaction and communication kept unit managers
6
  This checklist was more comprehensive than the checklist used as part of the Postal Service’s SOX compliance
program to ensure key financial controls were established and effective.
7
  The national SOX scorecard is used to monitor the organization’s performance on SOX key controls.
8
  For the unit and any related automated postal center.
9
  ADM is the repository for all accounting and finance related data for the Postal Service and is a part of the
Enterprise Data Warehouse (EDW). EDW is a collection of data from many sources that is stored in a single place for
reporting and analysis.




                                                         2
District Practices Affecting Financial Risk                                                              FF-MA-11-116



accountable and apprised of their monthly financial performance. These three districts
routinely ranked as low risk on the CCRM.

In contrast, managers in the two high-risk districts did not routinely track and monitor
financial performance. One district finance manager provided limited oversight related to
unit accountabilities and relied on a field financial specialist who only monitored
employee items. The other district finance manager also did not personally monitor
financial performance activities but relied on area field specialists, the district budgeting
manager, and unit personnel to monitor financial performance. The district finance
manager did not interact directly with the units. These two districts routinely ranked as
high risk on the CCRM.

Over the past 2 years, the OIG has issued 10 reports focusing on districts that routinely
ranked as high-risk on the CCRM. For each of these audits, we determined the district
did not effectively monitor unit financial activities. For example, in one district, managers
did not conduct, witness, and properly document accountability examinations at the
proper frequencies, causing excessive retail floor stock in some units. In another,
district, one unit maintained a master trust account that had been inactive for 3 years.
This occurred because of insufficient managerial oversight of financial operations at the
units. Based on the results of these reviews, we believe districts that use tools such as
checklists, certification systems, and scorecards to monitor financial activity improve
accountability, reduce financial risk, and enhance financial performance. In addition, as
indicated in prior reports, we believe management could expand and enhance the
effectiveness of the monitoring program to include documenting corrective actions taken
when high-risk offices are identified. The district management’s involvement is a key
compensating control that is critical in the overall environment to reinforcing the
importance of compliance with financial controls.

Finance-Related Training

All five district finance managers indicated that succession planning tools10 such as
training and detail assignments were in place, but not all managers required employees
to participate in the training programs offered. Specifically, three 11 of the five managers,
though aware of available training used to educate and develop employees, did not take
an active role to provide training to improve financial controls. However, one manager,
in a low-risk district, consistently worked with a team of employees by providing training
and conducting monthly meetings to discuss financial and SOX-related issues. This
team, in turn, assisted other units to improve financial accountability. Another manager
in a low-risk district required all unit managers and staff with financial responsibilities to
complete the SOX training courses offered on the area’s website as a means to improve
financial performance. The courses included bank deposit preparation, closeout

10
   Succession planning is a process for identifying and developing a pool of qualified employees for future leadership
positions.
11
   Although one of these districts consistently ranked as low risk, the finance manager did not provide training related
to financial controls.




                                                           3
District Practices Affecting Financial Risk                                    FF-MA-11-116



procedures, SmartPay reconciliation, cash/stamp counts, refunds, and Voyager
reconciliation. These courses are designed to reinforce awareness of financial
accountability and to ensure sustainability for SOX compliance. The primary focus is on
key financial controls that would help prepare a unit for official SOX testing. Because
these courses are web-based, employees can complete them at their own pace.

In addition, the Postal Service developed the ‘Field Finance Toolkit’ training courses to
help employees understand and perform their required financial duties and
responsibilities. Completion of these courses is voluntary, and employees can take the
courses as self-study or with a facilitator. The training courses take about 3-6 hours to
complete and cover:

   Customer Trust.
   Daily Financial Reporting Basics.
   Employee Items.
   Field Unit Purchasing and Payment Processes.
   Financial Accountability Overview.
   Financial Differences.
   Financial Security.
   No-Fee Money Orders.
   Stamp Stock Management.
   Timekeeping.
   Unit 1412 Closeout.

We noted internal control and compliance issues in 9 of the 10 prior reports focusing on
high-risk districts. For example, we found that employees did not record Business Reply
Mail (BRM)/Postage Due withdrawals in the point-of-service system. In another
example, employees did not record BRM revenue for more than 5 years. This occurred
because employees were unaware of and did not receive sufficient training on financial
reporting requirements. As a result, we recommended districts use finance-related
training such as this toolkit to further enhance financial performance and compliance
throughout the Postal Service. In addition, we recommended districts provide
continuous financial training to managers in units with internal control deficiencies. The
districts agreed with these recommendations. We believe required participation in
subject specific training would further enhance financial performance and compliance
throughout the Postal Service.

Recommendations

We recommend the vice president, Controller, in conjunction with area vice presidents,
direct district finance managers to:

1. Develop a standardized process that requires unit managers to certify completion of
   key financial reporting and other controls deemed applicable to a particular unit’s




                                              4
District Practices Affecting Financial Risk                                      FF-MA-11-116



    financial accountability and a tracking mechanism documenting the corrective action
    taken for units that are not in compliance.

2. Continuously monitor financial performance by routinely reviewing financial data,
   identifying compliance issues, and communicating results; and require units to take
   corrective action for deficiencies.

3. Require unit staff with financial responsibilities to successfully complete training that
   would further enhance financial performance and compliance. Also, districts should
   provide continuous financial training to managers in units with internal control
   deficiencies.

We recommend the vice president, Controller, in conjunction with area vice presidents:

4. Further develop a forum to continuously identify, share, and implement best
   practices among districts; and require districts and units to use tools similar to those
   listed in this report which result in exemplary financial performance.

Management’s Comments

Management agreed with recommendations 2 and 3. For recommendation 2,
management stated financial performance is routinely monitored at the district and area
levels. In addition, headquarters, area, and district management deployed and reviewed
two national monitoring tools that have historically been effective in improving field
financial indicators. By quarter 1, fiscal year (FY) 2012, all indicators will be centralized
in a database similar to one developed by the Western Area. For recommendation 3,
management is developing an integrated program consisting of eight financial training
modules for retail personnel. These modules will be developed by quarter 1, FY 2012,
and monitoring for the completion of the training will begin thereafter.

Management disagreed with recommendation 1 and stated Point-of-Sale terminals
currently provide an automated certification process as part of the nightly closeout
procedures and does not want to introduce another manual process. Further,
management disagreed with recommendation 4 and stated a number of forums for
identifying and sharing best practices already exists. However, management agreed
with the observation that more actively managed units tend to have better performance.
Therefore, the Revenue and Field Accounting group will continue to emphasize the
need for and the importance of sharing best practices and using existing tools
effectively. Subsequent to receipt of management’s comments, management informed
us the discussion with area accounting managers will be completed by December 31,
2011. See Appendix D for management’s comments in their entirety.




                                              5
District Practices Affecting Financial Risk                               FF-MA-11-116




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. In response to
recommendations 1 and 4, management’s continued emphasis of sharing best practices
and plans to centralize performance indicators in a database should result in a
standardized process for monitoring and tracking financial performance, ultimately
leading to improved financial control compliance.




                                              6
District Practices Affecting Financial Risk                                     FF-MA-11-116




                                Appendix A: Additional Information

Background

Postal retail units are the initial level where the Postal Service recognizes revenue from
operations. The term includes main offices, stations, branches, and other retail entities.
Postmasters or installation heads are responsible for collecting all receipts for which the
offices are entitled, accounting for all funds entrusted to them, and ensuring the offices
meet all accounting objectives.

The OIG developed the PARIS CCRM as a prototype model to assess financial
performance of Postal Service districts. The model ranks Postal Service districts with
respect to 12 financial risk indicators. The indicators include revenue (income), local
purchases, refunds, miscellaneous expenses, non-local purchases, clerk cash
management, office cash management, employee-related items, customer account
management, retail stamp stock, overall unit stamp stock management, and contract
postal unit management. We provide the model’s results to the Board of Governors and
Postal Service executives on a quarterly basis.

Objective, Scope, and Methodology

Our objective was to determine whether opportunities exist to identify and share best
practices related to management of financial operations between districts and, thus,
reduce financial risk Postal Service-wide. We used the CCRM to judgmentally select
five districts based on their consistent CCRM rank during the June, July, and August FY
2010 reporting periods to identify and compare financial monitoring. We selected the
Lakeland, Central Plains, Arkansas, Nevada-Sierra, and Philadelphia Metropolitan
districts.

We met with district finance managers and discussed their oversight approaches for
managing unit expenses, refunds, clerk and office cash, employee items, master trust
reconciliation, retail and unit stamp stock, and contract station operations. In addition,
we discussed leadership and financial training programs and incentives used to improve
financial controls.

We conducted this review from October 2010 through July 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on May 11, 2011, and included their comments where appropriate.

We relied on data obtained from the Postal Service’s ADM and used it to rank districts
according to the risk indicators developed for the CCRM. We did not test the reliability of
computerized data for this review, because we did not use transaction data; however, in
previous audits conducted on high-risk districts (as indicated in the “Prior Audit




                                                7
District Practices Affecting Financial Risk                                             FF-MA-11-116



Coverage” section), we traced recorded financial transactions to and from supporting
documentation and assessed the reliability of computerized data by verifying computer
records to source documents. Thus, we determined existing data were sufficient for the
purposes of this management advisory.

Prior Audit Coverage

The following reports listed internal control and compliance issues related to various
financial risk indicators identified by the CCRM. Specifically, our audits found internal
controls were not in place and effective for cash and stamp accountability, local
disbursements, financial differences, SmartPay® transactions, unit closeout, and payroll.
We determined these compliance issues occurred because the Postal Service did not
effectively manage financial operations, provide sufficient managerial oversight, or
promote training opportunities to units experiencing financial performance issues.
Management generally agreed with our findings and recommendations and
implemented corrective action.

                                                              Final
                                              Report         Report       Monetary
                 Report Title                 Number          Date         Impact
                                          FF-AR-11-008        3/3/2011        $40,660
             Post Office
             San Francisco District       FF-AR-11-003       12/13/2010        $8,870
             Risk-Based Post Office
             Audit
             Capital District Financial   FF-AR-10-075       1/19/2010        $20,434
             Risk Audit
             Greater South Carolina       FF-AR-10-049       12/16/2009           $0
             District Financial Risk
             Audit
             Gateway District             FF-AR-10-047       12/15/2009      $171,000
             Financial Accountability
             Risk Audit
             Fiscal Year 2009 Los         FF-AR-10-028       12/3/2009       $250,151
             Angeles District
             Financial Risk
             New York Metro Area          FF-AR-10-013       11/13/2009      $114,515
             Financial Accountability
             Risk
             Philadelphia District Post   FF-AR-09-223       9/25/2009       $945,487
             Office Financial Risk
             Audit
             Fiscal Year 2009             FF-AR-09-200       7/24/2009       $166,094
             Phoenix Financial Risk
             Audit
             Baltimore District           FF-AR-09-123       3/20/2009       $179,124
             Financial Risk Audit




                                                         8
District Practices Affecting Financial Risk                          FF-MA-11-116



                              Appendix B: Example of the Checklist




                                               9
District Practices Affecting Financial Risk                            FF-MA-11-116




                            Appendix C: Example of Completion Survey




                                               10
District Practices Affecting Financial Risk                        FF-MA-11-116



                               Appendix D: Management’s Comments




                                              11
District Practices Affecting Financial Risk        FF-MA-11-116




                                              12
District Practices Affecting Financial Risk        FF-MA-11-116




                                              13
District Practices Affecting Financial Risk        FF-MA-11-116




                                              14
